September 6, 2001

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:     Audit Report – Supplier Diversity Program for Supplies, Services, and
             Equipment Purchases (Report Number CA-AR-01-005)

This report presents the results of our audit of the Postal Service’s Supplier Diversity
Program for Supplies, Services, and Equipment Purchases (Project Number
00RA010CA000). This report responds to a request from the Governors to review the
Postal Service’s Supplier Diversity Program. The objectives of our audit were to assess
the accuracy of fiscal year (FY) 1999 supplier diversity statistics and to evaluate the
Postal Service’s effectiveness in achieving supplier diversity spending plans.

We found that supplier diversity statistics for FY 1999 were unreliable because prime
contracting dollars awarded to small, minority, and woman-owned businesses were
overstated and subcontracting statistics were unsupported and unverified. While we did
not determine the accuracy of FY 2000 statistics, we noted they were overstated
because some suppliers were incorrectly classified as small, minority, or woman-owned
businesses. Because statistics were unreliable, it was unclear whether the Postal
Service achieved its supplier diversity spending plans for FYs 1999 or 2000.

We made nine recommendations that will improve supplier diversity data reliability and
correct errors we identified. Management agreed with all of our recommendations and
has taken or planned specific actions to address issues we identified. However,
management did not agree with all of our conclusions regarding data reliability. While
acknowledging statistical inaccuracy, they pointed out some level of error was inherent
and inevitable, cited mitigating factors, and cited our observation that they were
continually working to improve data integrity. They also asserted that supplier diversity
statistics were useful for tracking general trends, management diagnostics,
benchmarking, and reporting. We disagreed with management’s perspective. In
responding to management’s comments, we pointed out that 22 percent of small
business commitments, 48 percent of minority commitments, and 31 percent of
commitments for woman-owned businesses were inaccurate or unsupported. We felt
that because of the magnitude of these errors, the data is not useful for tracking general
trends, management diagnostics, benchmarking, and reporting. Management's
comments, and our evaluation of these comments, are included in the report.
The Office of Inspector General (OIG) considers all the recommendations significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed. We appreciate
the cooperation and courtesies provided by your staff during the audit. If you have
questions or need additional information, please contact Kim Stroud, director, contracts,
at (703) 248-2100 or me at (703) 248-2300.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment

cc: Richard J. Strasser, Jr.
    Benjamin P. Ocasio
    John R. Gunnels
Supplier Diversity Program for Supplies,                             CA-AR-01-005
 Services, and Equipment Purchases


                                    TABLE OF CONTENTS

Executive Summary                                                        i

Part I

Introduction                                                             1

   Background                                                            1
   Objectives, Scope, and Methodology                                    1
   Prior Audit Coverage                                                  2

Part II

Audit Results                                                            3

   Fiscal Year 1999 Supplier Diversity Statistics Were Unreliable        3
      Prime Contracting Dollars May Be Overstated                        3
      Recommendations                                                    5
      Management’s Comments                                              5
      Evaluation of Management’s Comments                                6

          Subcontracting Statistics are Unsupported and Unverified       7
          Recommendations                                                9
          Management’s Comments                                          9
          Evaluation of Management’s Comments                            9

   Achievement of Supplier Diversity Spending Plan is Unclear           13


Appendix A. Prime Contract Dollar Overstatements                        15

Appendix B. Subcontracting Reporting Process                            18

Appendix C. Management’s Comments                                       19




                                           Restricted Information
Supplier Diversity Program for Supplies,                                             CA-AR-01-005
 Services, and Equipment Purchases


                                    EXECUTIVE SUMMARY
 Introduction                    The Postal Service implemented a Supplier Diversity
                                 Program to provide suppliers with equal access to
                                 purchasing opportunities. The program seeks to ensure
                                 that the supplier base reflects the diversity of the American
                                 supplier community and that no suppliers are excluded from
                                 competition on the basis of race, color, religion, sex, age, or
                                 national origin. The Postal Service has identified the
                                 program as a strategic business initiative vital to the
                                 success of the Postal Service.

                                 Over the past few years, the Postal Service has identified
                                 initiatives to improve its Supplier Diversity Program. In
                                 1998, the Office of Inspector General (OIG) conducted a
                                 review of the Postal Service’s Supplier Diversity Program in
                                 response to a congressional request. We identified various
                                 factors that contributed to the Postal Service missing its
                                 targets for minority contract awards in fiscal year (FY) 1998.

                                This audit was initiated at the request of the Governors.
                                Our audit objectives were to assess the accuracy of
                                FY 1999 supplier diversity statistics for supplies, services,
                                and equipment purchasing, and evaluate the effectiveness
                                of the Postal Service in achieving supplier diversity
                                spending plans.

 Results in Brief               Supplier diversity statistics for FY 1999 were unreliable.
                                Prime contract dollars may be overstated by at least
                                $43 million for small, $.7 million for minority, and $1 million
                                for woman-owned businesses because contractors’
                                socioeconomic status was incorrect. In addition, another
                                $13.5 million may have been overstated because the Postal
                                Service included contract actions that occurred outside of
                                FY 1999, or were attributable to basic pricing agreements,
                                or terminated/closed contracts.

                                Further, $99 million of minority, $68 million of woman-
                                owned, and $370 million of small business subcontract
                                actions could not be supported for supplies, services, and
                                equipment purchases reported in FY 1999. Data in contract
                                files could not be reconciled to the procurement database,
                                and some data was not available for reconciliation.
                                Contracting personnel did not determine whether
                                subcontract data submitted by prime contractors was



                                                      i
                                           Restricted Information
Supplier Diversity Program for Supplies,                                            CA-AR-01-005
 Services, and Equipment Purchases


                                reasonable and consistent with contract requirements as
                                required by the Purchasing Manual. According to Postal
                                Service officials, efforts to improve subcontract data are
                                underway.

                                Due to issues identified in our audit regarding the quality of
                                supplier diversity statistics, we could not determine if the
                                Postal Service achieved supplier diversity spending plans.
                                Although the Postal Service reported it exceeded small
                                business spending plans by $219 million in FY 1999, our
                                audit identified $370 million in subcontracts that could not
                                be supported and over $43 million that was awarded to
                                suppliers incorrectly classified as small businesses.

                                In FY 2000, Postal Service statistics showed it exceeded
                                small business spending plans by $364 million and woman-
                                owned spending plans by $2 million. While we did not
                                determine the accuracy of all FY 2000 statistics, we noted
                                that $59.5 million was awarded to suppliers incorrectly
                                classified as small, minority, or woman-owned businesses.
                                Further, we believe problems we observed with
                                procurement data supporting FY 1999 statistics also
                                impacted FY 2000 statistics. Consequently, current supplier
                                diversity statistics cannot be used as a measure of current
                                performance or serve as a benchmark for future
                                performance. According to the Postal Service’s Supplier
                                Diversity Plan, small, minority, and woman-owned
                                companies are driving the growth in the American economy;
                                so doing business with them makes good business sense
                                and should have a positive impact on the Postal Service’s
                                bottom line. The plan also asserts that the ability of the
                                Postal Service to meet customer expectations will depend
                                on its ability to achieve supplier diversity.

                                According to Postal Service management, supplier diversity
                                statistics, while imperfect, are based on the best available
                                data and noted errors are not significant. Postal Service
                                management recognizes that improvements can be made in
                                the area of data reliability. They stated that they would
                                appreciate the OIG’s help in a focused effort to stratify and
                                sort data errors so that they can address the errors by
                                relative importance.




                                                      ii
                                           Restricted Information
Supplier Diversity Program for Supplies,                                          CA-AR-01-005
 Services, and Equipment Purchases




 Summary of                     We recommend the vice president, Purchasing and
 Recommendations                Materials, develop policies and procedures to ensure the
                                accuracy of data in the procurement database and reported
                                supplier diversity statistics. We also recommend that the
                                vice president, Purchasing and Materials, correct errors and
                                reports associated with actions identified in our audit.

 Summary of                     Management agreed with all of our recommendations but
 Management’s                   did not agree with all of our conclusions regarding the
 Comments                       reliability of statistical data. Management suggested that in
                                the context of commitments on small, minority, and woman-
                                owned businesses totaling more than $4 billion, prime
                                contract overstatements by $43 million on small businesses,
                                $.7 million on minority businesses, and $1 million on
                                woman-owned businesses were immaterial and
                                consequently disagreed with our finding that supplier
                                diversity statistics were unreliable. While acknowledging
                                data inaccuracy, they pointed out that some level of error
                                was inherent and inevitable. They asserted that their
                                statistics were useful for tracking general trends,
                                management diagnostics, benchmarking, and reporting.
                                Management's comments, in their entirety, are included in
                                Appendix C.

 Overall Evaluation of          We disagree with management’s perspective. Management
 Management’s                   stated that total supplier diversity commitments were about
 Comments                       $4 billion. That figure included commitments related to
                                facilities and transportation, as well as commitments related
                                to supplies, services, and equipment. However, our audit
                                focused only on supplies, services, and equipment.
                                Management also incorrectly suggested that data reliability
                                problems were limited to commitments related to prime
                                contracts. Data reliability problems associated with
                                subcontracts also need to be included. When analysis is
                                properly focused only on commitments for supplies,
                                services, and equipment, and data reliability problems with
                                subcontracts are properly included, the analysis is much
                                more compelling. Specifically:




                                                     iii
                                           Restricted Information
Supplier Diversity Program for Supplies,                                            CA-AR-01-005
 Services, and Equipment Purchases



                                     •     $413 million of $1.87 billion (22 percent) in
                                           FY 1999 commitments to small business included
                                           errors.

                                     •     $100 million of $209 million (48 percent) in
                                           FY 1999 commitments to minorities included errors.

                                     •     $69 million of $219 million (31 percent) in
                                           FY 1999 commitments to woman-owned businesses
                                           included errors.

                                These percentages are clearly material, contradicting
                                management's assertion. Consequently, we believe these
                                program statistics are not useful for tracking general trends,
                                management diagnostics, benchmarking, and reporting.




                                                      iv
                                            Restricted Information
Supplier Diversity Program for Supplies,                                             CA-AR-01-005
 Services, and Equipment Purchases


                                           INTRODUCTION
 Background                     According to Section 3.2 of the Purchasing Manual, supplier
                                diversity must be managed as a strategic business initiative
                                because it is vital to the success of the Postal Service. In
                                November 1996, the Board of Governors contracted for a
                                special study to evaluate and assess the effectiveness of the
                                Postal Service's diversity development program. The study
                                was completed in October 1997 and offered various
                                recommendations designed to improve supplier diversity. In
                                January 1998, the Board of Governors directed Postal Service
                                management to review the study’s results and develop an
                                action plan to address the findings. In response, the deputy
                                postmaster general chartered a cross-functional diversity
                                advisory team to develop a plan to improve supplier diversity
                                at the Postal Service. In April 1998, the deputy postmaster
                                general briefed the Board of Governors on its supplier
                                diversity plan that included specific initiatives to ensure
                                supplier diversity. An oversight committee at the Postal
                                Service tracked and monitored these actions. In July 1999,
                                the Postal Service reported that all supplier diversity initiatives
                                resulting from the study were completed.

 Objectives, Scope,             The objectives of our audit were to: (1) assess the reliability of
 and Methodology                fiscal year (FY) 1999 supplier diversity statistics for supplies,
                                services, and equipment purchasing, and (2) determine if the
                                Postal Service has been effective in achieving its supplier
                                diversity spending plan.

                                To assess the accuracy of supplier diversity statistics, we
                                judgmentally selected and reviewed 638 supplies, services,
                                and equipment contracts and modifications awarded during
                                FY 1999. The sample was selected from contract actions with
                                dollar values ranging from $1,000 to over $1 million. We
                                reviewed contract files and supporting documentation from
                                headquarters Purchasing, the Topeka Purchasing Service
                                Center, and the ten purchasing and materials service centers.
                                We also interviewed managers, supplier diversity
                                coordinators, and contracting personnel at these locations.

                                To determine if the Postal Service has been effective in
                                achieving its supplier diversity spending plan, we compared
                                planned and actual contract dollars awarded to small, minority,
                                and woman-owned businesses for FYs 1999 and 2000. In
                                addition, we determined the impact of data reliability issues on



                                                      1
                                           Restricted Information
Supplier Diversity Program for Supplies,                                                                          CA-AR-01-005
 Services, and Equipment Purchases


                                       the Postal Service’s achievement of its supplier diversity
                                       spending plan.

                                       We conducted our audit between December 1999 and
                                       September 2001 in accordance with generally accepted
                                       government auditing standards and included such tests of
                                       internal controls as were considered necessary under the
                                       circumstances. We discussed our conclusions and
                                       observations with appropriate management officials.

    Prior Audit Coverage               On September 30, 1998, the Office of Inspector General (OIG)
                                       issued a management advisory report on Supplier Diversity
                                       and Minority Contracting (Report Number CA-MA-98-003) that
                                       examined Postal Service contracts with minority businesses.
                                       This review disclosed: (1) the Postal Service did not enforce
                                       its requirement that contractors submit subcontracting plans
                                       that encourage and include minority contracts; (2) the Postal
                                       Service did not meet FY 1998 supplier diversity targets for
                                       minority contract awards; (3) minority contract awards
                                       declined from FY 1994 to 1995, increased from FY 1995 to
                                       1996 and then declined again from FY 1996 to 1997; and
                                       (4) the Postal Service did not address all supplier diversity
                                       recommendations from the study conducted by Aguirre
                                       International.1 Management generally agreed with the
                                       findings and took corrective actions responsive to the issues.
                                       The Postal Service indicated all recommendations from the
                                       Aguirre study were addressed; however, they did not adopt all
                                       of the recommendations.




1
  A special study conducted by Aguirre International to evaluate and assess the effectiveness of the Postal Service Diversity
Development Program was completed in October 1997. The study offered 15 recommendations designed to improve supplier
diversity.



                                                               2
                                                    Restricted Information
Supplier Diversity Program for Supplies,                                                CA-AR-01-005
 Services, and Equipment Purchases


                                           AUDIT RESULTS
Fiscal Year 1999                Our audit disclosed supplier diversity statistics for FY 1999
Supplier Diversity              supplies, services, and equipment contracts were unreliable.
Statistics Were                 Specifically, prime contract dollars awarded to small,
Unreliable                      minority, and woman-owned businesses may be overstated
                                by at least $43 million for small, $.7 million for minority, and
                                $1 million for woman-owned businesses. In addition,
                                another $13.5 million in overstatements may have occurred
                                because the Postal Service included dollars from contract
                                actions that occurred outside of FY 1999, basic pricing
                                agreements, or terminated/closed contracts. Reported
                                statistics for prime contracts also differed from amounts
                                documented in contract files. Finally, documentation could
                                not be found to support FY 1999 subcontract dollars totaling
                                $99 million for minority, $68 million for woman-owned, and
                                $370 million for small businesses. Contracting personnel
                                did not determine whether these amounts were reasonable
                                and consistent with contract requirements. As a result, the
                                Postal Service cannot accurately assess the extent to which
                                program goals were achieved.

                                Postal Service managers acknowledged data reliability
                                problems with their FY 1999 supplier diversity data. They
                                stated that FY 1999 was a year of transitions. For example,
                                the Postal Service changed its subcontracting policy in
                                FY 1999, and implemented a new procurement system in
                                supplies, services, and purchasing.

Prime Contracting               Prime contracting dollars awarded to small, minority, and
Dollars May Be                  woman-owned businesses reported in the Purchasing
Overstated                      Assessment Report FY 1999 may be overstated by at least
                                $43 million for small, $.7 million for minority, and $1 million
                                for woman-owned businesses. Appendix A identifies the
                                contracts we found involving suppliers whose
                                socioeconomic status was incorrect in the procurement
                                database. An additional $13.5 million in overstatements
                                included:

                                    •      $3.8 million in contract actions that occurred outside
                                           of FY 1999.

                                    •      $5.2 million in basic pricing agreements incorrectly
                                           recorded.



                                                       3
                                            Restricted Information
Supplier Diversity Program for Supplies,                                               CA-AR-01-005
 Services, and Equipment Purchases


                                    •      $4.5 million in unused dollars for terminated and
                                           closed contracts that were not deobligated.

                                We identified approximately $59.5 million in overstatements
                                in small businesses for FY 2000 as a result of incorrect
                                socioeconomic coding. The contracts involved are listed in
                                Appendix A.

                                According to Section 3.2.4 of the Purchasing Manual,
                                purchases made from small, minority, and woman-owned
                                businesses must be coded by socioeconomic classification.
                                Postal Service policy does not require contracting officers to
                                update the procurement database when changes occur to a
                                supplier’s socioeconomic status.

                                Overall, we identified 118 of 638 contract actions where the
                                socioeconomic classifications differed between the
                                procurement database and contract files. However, we
                                were unable to determine which source was correct; and
                                therefore, could not quantify the impact of such differences
                                on the statistics.

                                We also identified $3.8 million in overstatements for actions
                                that occurred outside of FY 1999 that were included in
                                supplies, services, and equipment purchasing for supplier
                                diversity statistics. The data used in reporting the statistics
                                was extracted from the procurement database 2 weeks after
                                the end of FY 1999. Because the procurement database
                                keeps a cumulative balance, a complete report of FY 1999
                                activity can only be obtained on the last day of the fiscal
                                year.

                                Another $5.2 million in overstatements comprised estimated
                                or not-to-exceed amounts of 13 basic pricing agreements.
                                These amounts represent the maximum amount of all orders
                                that can be made under the agreement, and not actual
                                commitments. According to headquarters Purchasing
                                personnel, basic pricing agreements should be posted in the
                                procurement database with zero dollar amounts and only
                                include dollars committed through individual orders.
                                Estimated or not-to-exceed amounts, in lieu of order
                                amounts, were reported in supplier diversity statistics
                                because no standardized procedures exist and contracting
                                officers we interviewed were unclear on which amounts to
                                record in the procurement database.


                                                       4
                                            Restricted Information
Supplier Diversity Program for Supplies,                                             CA-AR-01-005
 Services, and Equipment Purchases


                                  Lastly, terminated and cancelled contracts with unused
                                  dollars totaling over $4.5 million were inappropriately
                                  included in supplier diversity statistics. These funds should
                                  have been deobligated in the procurement database.
                                  However, contracting officers were not deobligating unused
                                  funds on terminated and cancelled contracts. Some
                                  contracting officers explained this was an oversight.
                                  Although the Procurement Handbook2 required contracting
                                  officers to deobligate unused funds on terminated and
                                  cancelled contracts, it was superceded by the Purchasing
                                  Manual that does not require funds to be deobligated.

Recommendation                    We recommend the vice president, Purchasing and
                                  Materials:

                                  1. Develop and implement contract administration
                                     procedures on updating the procurement database and
                                     contract files when changes occur in a supplier’s
                                     socioeconomic status.

Management’s                      Management generally agreed with our recommendation.
Comments                          They stated that they would address the recommendation by
                                  issuing a Purchasing and Materials Administrative
                                  Instruction within approximately 120 days.

Recommendations                   2. Correct the socioeconomic classification in the
                                     procurement database of the suppliers of the
                                     14 contracts identified in our report (See Appendix A).

                                  3. For the remaining 104 contract actions identified in our
                                     report, reconcile contract files to the procurement
                                     database and correct errors in socioeconomic status of
                                     suppliers.

Management’s                      Management generally agreed with recommendations 2 and
Comments                          3. They stated that they would correct current and active
                                  contracts in the procurement database within approximately
                                  60 days.




2
    Procurement Handbook AS-707, TL 4 dated February 1, 1992, Section 6.2.2-241.


                                                       5
                                            Restricted Information
Supplier Diversity Program for Supplies,                                          CA-AR-01-005
 Services, and Equipment Purchases




Recommendation                  4. Archive the procurement database at the end of the fiscal
                                   year as support for annual supplier diversity statistical
                                   reports.

Management’s                    Management agreed with our recommendation. They stated
Comments                        that they would document and retain data as of each fiscal
                                year.

Recommendations                 5. Establish and implement standard criteria for recording
                                   basic pricing agreement amounts in the procurement
                                   database.

                                6. Revise the Purchasing Manual to include policy requiring
                                   contracting personnel to deobligate unused funds from
                                   contracts and the procurement database when contracts
                                   are terminated or cancelled.

Management’s                    Management generally agreed with recommendations 5 and
Comments                        6. They stated that they would address the recommendation
                                by issuing a Purchasing and Materials Administrative
                                Instruction within approximately 120 days after we issue our
                                final report.

Recommendation                  7. In developing the Purchasing Assessment Report
                                   FY 2001, include corrections to FYs 1999 and 2000
                                   statistics for small, minority, and woman-owned
                                   businesses.

Management’s                    Management agreed with our recommendation. They stated
Comments                        that they would include a footnote in the Purchasing
                                Assessment Report FY 2001 providing specific corrections
                                of errors identified during the audit of FYs 1999 and 2000
                                statistics and that the report and footnote would be
                                published during or near April 2002.

Evaluation of                   Management’s comments were responsive to
Management’s                    recommendations 1 through 7. We believe the actions
Comments                        taken and planned should correct the issues that were the
                                focus of the recommendations. However, management
                                made additional comments not necessarily associated with
                                specific recommendations and with which we do not agree.
                                We summarized and evaluated those comments at the end
                                of the following section.


                                                      6
                                           Restricted Information
Supplier Diversity Program for Supplies,                                                          CA-AR-01-005
 Services, and Equipment Purchases



Subcontracting                   Our audit disclosed that $99 million of minority, $68 million
Statistics are                   of woman-owned, and $370 million of small business
Unsupported and                  subcontract actions could not be supported for supplies,
Unverified                       services, and equipment purchases reported in FY 1999.
                                 The supporting documentation at 15 of the 16 offices we
                                 visited did not reconcile to reported statistics. At the
                                 remaining office, no quarterly reports were available.3

                                 The OIG noted that the Postal Service revised the
                                 subcontracting policy in February 1999 and adopted a new
                                 subcontracting reporting system in June 1999. As a result,
                                 FY 1999 subcontract reporting was a combination of the old
                                 and new reporting formats.

                                 Due to the combination of the old and new reporting formats,
                                 we could not reconcile reported dollars. We could not match
                                 reported statistics to quarterly subcontracting reports
                                 submitted by prime contractors at 15 offices. Quarterly
                                 reports varied in form, content, and reporting periods, which
                                 made data aggregation difficult and irreconcilable. For
                                 example, periods overlapped and actions were double
                                 counted.

                                 Reported statistics were also unverified. Contracting
                                 personnel did not review the subcontracting data submitted
                                 by suppliers for reasonableness and consistency with
                                 contract requirements. Section 6.2.3 of the Purchasing
                                 Manual states that reviewing supplier submittals is an
                                 important method of enforcing contract requirements.
                                 Contract terms requiring submission and approval should be
                                 strictly enforced. Subcontracting reports ensure compliance
                                 with contract terms regarding the subcontracting plan.

                                 However, we found that the supplier diversity coordinator at
                                 each purchasing office was collecting data from the prime
                                 suppliers and preparing summary reports on dollars
                                 awarded to small, minority, and woman-owned businesses.
                                 The supplier diversity coordinators then submitted this
                                 summary report to a management analyst at headquarters
                                 to compile each office’s subcontract summary into one
                                 report to be included in the Purchasing Assessment Report.
3
 Supplies, services, and equipment purchasing includes the 10 purchasing and materials service centers, Topeka
Service Center, Automation Purchasing, Information Technology Purchasing, Services Purchasing, Printing
Purchasing, and Operational Equipment Purchasing.


                                                       7
                                            Restricted Information
Supplier Diversity Program for Supplies,                                          CA-AR-01-005
 Services, and Equipment Purchases


                                Neither contracting officers nor supplier diversity
                                coordinators interviewed reviewed data for reasonableness
                                and consistency with contract requirements. A flowchart of
                                the subcontracting reporting process is contained in
                                Appendix B.

                                Consequently, FY 1999 supplier diversity statistics cannot
                                be used as a measure of current performance, or serve as a
                                benchmark for future performance. According to the Postal
                                Service Supplier Diversity Plan, small, minority, and woman-
                                owned companies are driving the growth in the American
                                economy, so doing business with them makes good
                                business sense and should have a positive impact on the
                                Postal Service’s bottom line.

                                Since 1999, the Postal Service has been continually
                                improving subcontract data integrity. Current efforts include
                                continuous communication between the management
                                analyst at headquarters, contracting officers, and supplier
                                diversity coordinators to ensure that everyone understands
                                what they should be looking for in the quarterly
                                subcontracting reports, common mistakes made, and the
                                importance of the reports. The management analyst also
                                distributed samples of properly completed reports and tips in
                                catching errors before reports are forwarded. In addition,
                                the management analyst recommended contracting officers
                                communicate with suppliers to ensure subcontracting
                                reports are interpreted correctly to ensure accurate
                                reporting. Contracting officers and coordinators were
                                instructed to encourage suppliers to use electronic report
                                forms and instructions. Finally, the management analyst
                                encouraged contracting officers to follow-up with suppliers
                                and coordinators to ensure subcontract data is properly
                                reviewed.




                                                      8
                                           Restricted Information
Supplier Diversity Program for Supplies,                                            CA-AR-01-005
 Services, and Equipment Purchases




Recommendations                 We recommend the vice president, Purchasing and
                                Materials:

                                8. Advise contracting officers that Section 6.2.3 of the
                                   Purchasing Manual extends to subcontracting submittals
                                   and require contracting personnel to review subcontract
                                   data submitted by prime suppliers.

                                9. Require that quarterly subcontracting reports submitted
                                   by suppliers be maintained.

Management’s                    Management agreed with recommendations 8 and 9. They
Comments                        stated that the recommendations are in accordance with
                                their existing policy and that during their Purchasing Review
                                for Excellence Program they would reinforce the
                                requirement to maintain reports in contract files. They also
                                stated that the Purchasing Review for Excellence process
                                would be completed within approximately 30 days.

Other Management                Although, management agreed with all of our
Comments                        recommendations, they disagreed with some of our findings
                                and conclusions. Specifically, management suggested that
                                in the context of commitments on small, minority, and
                                woman owned businesses totaling more than $4 billion,
                                prime contract overstatements by $43 million on small
                                businesses, $.7 million on minority businesses, and
                                $1 million on woman-owned businesses were immaterial.
                                Because management felt overstatements were immaterial,
                                they disagreed with our finding that supplier diversity
                                statistics were unreliable, and stated that the statistics were
                                useful for tracking general trends, management diagnostics,
                                benchmarking, and reporting.

Evaluation of                   We disagree with management’s perspective. In their
Management’s                    response, management erroneously expanded the scope of
Comments                        our audit and sample, and also discounted data problems
                                associated with subcontracts. Management stated that total
                                supplier diversity commitments were about $4 billion.
                                However, our audit only focused on commitments for
                                supplies, services, and equipment. The $4 billion cited by
                                management erroneously included commitments for




                                                      9
                                           Restricted Information
Supplier Diversity Program for Supplies,                                                CA-AR-01-005
 Services, and Equipment Purchases


                                transportation and facilities. Further, management
                                incorrectly suggested data reliability problems were limited
                                to commitments for prime contracts. Data reliability
                                problems with subcontracts also need to be included in the
                                analysis. When the analysis is properly focused on
                                commitments for supplies, services, and equipment, and
                                data reliability problems with subcontracts are properly
                                included, the analysis is much more compelling.
                                Specifically:

                                    •      $413 million of $1.87 billion (22 percent) in 1999
                                           commitments to small business included errors.

                                    •      $100 million of $209 million (48 percent) in 1999
                                           commitments to minorities included errors.

                                    •      $69 million of $219 million (31 percent) in 1999
                                           commitments to woman-owned businesses included
                                           errors.

                                These percentages are clearly material, contradicting
                                management’s assertion. Consequently, we believe
                                supplier diversity statistics are not useful for tracking general
                                trends, management diagnostics, benchmarking, and
                                reporting.

Management’s                    Management took exception to our finding that $3.8 million
Comments                        in contract actions issued outside of 1999 were improperly
                                included in 1999 statistics. Although they acknowledged
                                their error, they calculated it as $260,000.

Evaluation of                   We disagree with management's assertion. Management
Management’s                    acknowledged that they did not properly cut off their
Comments                        FY 1999 database at the end of the fiscal year and were
                                almost 2 weeks late in accomplishing that requirement.
                                During our audit we identified six contract actions, specified
                                in Appendix A, that were awarded after the end of FY 1999,
                                but prior to the database cutoff date identified by Postal
                                Service data analysts. Therefore, management did not
                                properly archive or retain a “snapshot” of the data at the
                                cutoff date. Consequently, they were unable to provide
                                sufficient documentation necessary to establish that the six
                                contracts were excluded from FY 1999 statistics.




                                                      10
                                            Restricted Information
Supplier Diversity Program for Supplies,                                           CA-AR-01-005
 Services, and Equipment Purchases




Management's                    Management took exception to our finding that 13 basic
Comments                        ordering agreements totaling $5.2 million were improperly
                                included in FY 1999 supplier diversity statistics. We
                                reported that the amounts were improperly included
                                because they represented estimates—not actual
                                commitments. Management suggested that the practice of
                                including basic ordering agreements in supplier diversity
                                statistics was customary and practical.

Evaluation of                   We disagree with management's assertions. Postal Service
Management's                    policy specifically states that basic ordering agreements are
Comments                        not contracts, and as we pointed out in our report, officials
                                we talked to indicated basic ordering agreements should not
                                be included in supplier diversity statistics. The practice of
                                including basic ordering agreements in supplier diversity
                                statistics could cause double counting when actual contracts
                                are issued.

Management's                    Management took exception to our finding that
Comments                        four terminated or cancelled contracts valued at over
                                $4.5 million were inappropriately included in FY 1999
                                statistics. Management generally agreed that terminated
                                contracts should not be included in supplier diversity
                                statistics, and acknowledged that three of the contracts,
                                valued at about $2.4 million may have been improperly
                                included in FY 1999 statistics in error. However,
                                management stated that the largest contract, valued at
                                more than $2.3 million was active, and that deobligation
                                was not warranted. We noted management commented
                                they believed the overstatement should be about
                                $100,000 instead of the stated $4.5 million. However, that
                                number is inconsistent with their acknowledgement that
                                three of the four contracts were erroneous entries.

Evaluation of                   We noted management’s comments regarding the error and
Management’s                    disagree that the largest contract, valued at $2.3 million,
Comments                        should not have been deobligated. Prior to our audit, only
                                $138,000 had been expended. At the time of our audit, the
                                contracting officer could not locate the file and told us the
                                contract had been cancelled. Records we subsequently
                                reviewed revealed no activity for a period of approximately
                                1 year until the contract was reactivated and modified in



                                                     11
                                           Restricted Information
Supplier Diversity Program for Supplies,                                          CA-AR-01-005
 Services, and Equipment Purchases


                                February 2001. We do not agree that funds committed
                                since the contract was reactivated in 2001, were properly
                                included in FY 1999 supplier diversity statistics.




                                                     12
                                           Restricted Information
Supplier Diversity Program for Supplies,                                                                                            CA-AR-01-005
 Services, and Equipment Purchases



Achievement of                           The Postal Service was not always effective in achieving its
Supplier Diversity                       supplier diversity spending plan. The following chart, which
Spending Plan is                         is based on the Postal Service’s Supplier Diversity Plan and
Unclear                                  Purchasing Assessment Reports, summarizes the Postal
                                         Service's progress in meeting its supplier diversity spending
                                         plan:4

                                                                     Achievement of Supplier Diversity
                                                                             Spending Plan
                                                                                          (Dollars in millions)
                                                          Small Business           Minority Business                        Woman-owned
                                             $6,000
                                                                                                                              Business
                                                                 $5,265
                                                      $4,932              $4,901
                                             $5,000         $4,713

                                             $4,000
                                                                                                                                $ Actual
                                             $3,000                                                                             $ Planned


                                             $2,000

                                             $1,000                                         $575              $615           $688   $724    $722
                                                                                   $514              $594            $661

                                                 $0
                                                        FY '99       FY '00          FY '99              FY '00        FY '99         FY '00




                                         Note: Spending Plan dollar amounts were obtained from the Supplier
                                         Diversity Plan, FYs 1999-2003. According to the manager, Supplier
                                         Development and Diversity, the spending plan was premised on a
                                         growth in spending over the prior year. Spending was curtailed in
                                         FY 2000 and was significantly below spending for FY 1999.

                                         In the Purchasing Assessment Report FY 1999, the Postal
                                         Service reported it exceeded its FY 1999 spending plan for
                                         small businesses by $219 million. However, our audit
                                         identified $370 million in subcontracts to small businesses
                                         that could not be supported. Additionally, we determined
                                         that over $43 million was awarded to three suppliers who
                                         were large businesses. Also, as previously stated in our
                                         report, we believe another $13.5 million in prime contracting
                                         dollars may be overstated, to include small business
                                         awards.

                                         The Postal Service also reported that it missed the
                                         spending plans for minority and woman-owned businesses
                                         for FY 1999 by $61 million and $27 million, respectively.
                                         However, due to data reliability issues we could not verify

4
  Achievement of Supplier Diversity Spending Plan Chart includes supplier diversity statistics for Facilities, Transportation, and
Supplies, Services and Equipment Purchasing and credit card activity.



                                                                13
                                                      Restricted Information
Supplier Diversity Program for Supplies,                                                          CA-AR-01-005
 Services, and Equipment Purchases


                                  whether the Postal Service missed these spending plans.
                                  Any socioeconomic misclassifications could impact these
                                  numbers positively as well as negatively.5

                                  In the Purchasing Assessment Report FY 2000, the Postal
                                  Service reported actual dollars awarded to small, minority,
                                  and woman-owned businesses. According to these actuals,
                                  the Postal Service exceeded small business and woman-
                                  owned business spending plans by $364 million and
                                  $2 million, respectively, but missed minority spending plans
                                  for FY 2000 by $21 million. While we did not determine the
                                  accuracy of all of the FY 2000 statistics, we noted that
                                  $59.5 million was awarded to suppliers whose
                                  socioeconomic status was incorrect. Further, we believe
                                  problems we observed with procurement data supporting
                                  FY 1999 statistics also impacted the FY 2000 statistics.

                                  We believe recommendations to improve data reliability
                                  made in the previous section of this report and continuing
                                  improvements being made by the Postal Service will
                                  address the findings discussed here. Therefore, no
                                  additional recommendations are needed.




5
 In the Purchasing Assessment Report FY 1999, the Postal Service reported “deltas” between the FY 1999 supplier
diversity plan and FY 1999 actuals. However, the reporting format changed in the Purchasing Assessment Report
FY 2000 and the report does not include a comparison between the supplier diversity plan and actuals.


                                                      14
                                            Restricted Information
Supplier Diversity Program for Supplies,                                                 CA-AR-01-005
 Services, and Equipment Purchases


    APPENDIX A. PRIME CONTRACT DOLLAR OVERSTATEMENTS

    1. Contract actions totaling approximately $43 million for small, $.7 million for
       minority, and $1 million for woman-owned businesses reported in FY 1999 that
       had incorrect socioeconomic classifications.

                                                  FY 1999

                       Contract No.           Small        Minority   Woman-owned
                   102590-95-B-2240 *      $27,025,630
                   102590-96-B-2652 *      $14,414,260
                   089480-99-M-0558            $11,448      $11,448           $11,448
                   089480-99-M-0523            $21,718      $21,718           $21,718
                   089480-99-M-0517            $25,328      $25,328           $25,328
                   102590-99-Z-1392         $1,608,382
                   475630-99-M-0911                          $4,831
                   475630-99-M-0243                         $23,289
                   475630-99-M-1016                         $87,000
                   475630-99-M-1017                        $156,000
                   475630-99-M-0172                        $345,126
                   102591-99-M-2346                                           $17,800
                   102591-99-D-2071                                          $161,740
                   102590-99-D-1125                                          $853,322

                   Totals                  $43,106,766     $674,740         $1,091,356




        We identified approximately $59.5 million in FY 2000 that had incorrect
        socioeconomic classifications.

                                                      FY 2000

                                       Contract No.           Small
                                   102590-95-B-2240 *      $23,168,958
                                   102590-99-Z-1392        $36,383,430

                                   Total                   $59,552,388

                                 * Represents modifications to contracts.




                                                     15
                                           Restricted Information
Supplier Diversity Program for Supplies,                                                   CA-AR-01-005
 Services, and Equipment Purchases


    APPENDIX A. PRIME CONTRACT DOLLAR OVERSTATEMENTS
                         (Continued)
    2. Contract actions totaling approximately $3.8 million were issued outside of
       FY 1999.

                         Contract Number               Action Date   Action Amount
                363199-99-B-0044                           9/22/99   $         2,467,920
                483083-99-P-0065                           9/15/99   $          180,500
                363199-99-B-0006                           9/21/99   $           27,000
                102595-99-B-2310                           9/24/99   $         1,000,000
                335660-99-P-0098                           9/20/99   $           76,000
                475630-99-F-0132                           9/24/99   $           51,000
                Total                                                $         3,802,420
                *These contract actions are modifications.

    3. Contract actions totaling approximately $5.2 million in basic pricing agreements
       were incorrectly recorded.

                              Contract Number                 Amount
                            052684-99-R-0506           $            62,500
                            052684-99-R-0109           $           250,000
                            052684-99-R-0672           $           275,000
                            335660-99-R-0001           $           150,000
                            475630-96-R-0266           $            15,000
                            483083-97-R-0201           $            50,000
                            052684-99-R-0736           $           100,000
                            102595-99-R-1775           $         2,000,000
                            102595-99-R-1811           $         2,000,000
                            052684-97-R-0332           $           100,000
                            052684-99-R-0294           $            60,000
                            102590-97-R-1663           $           100,000
                            412735-95-R-1502           $             9,438
                            Total                      $         5,171,938



                            * Contract establishes a Basic Pricing Agreement




                                                     16
                                           Restricted Information
Supplier Diversity Program for Supplies,                                          CA-AR-01-005
 Services, and Equipment Purchases



       APPENDIX A. PRIME CONTRACT DOLLAR OVERSTATEMENTS
                            (Continued)
    4. Terminated and cancelled contracts with approximately $4.5 million in unused
       funds were not deobligated.

                                  Contract Number                     Amount
                        102590-99-B-1134                            $ 2,361,001
                        *102590-99-M-0508                           $ 2,060,440
                        475630-99-P-0211                            $    30,360
                        475630-99-R-0655                            $    69,004
                        Total                                       $ 4,520,805
                        * HQ deleted contract from SNAPS.




                                                     17
                                           Restricted Information
Supplier Diversity Program for Supplies,                                                                                               CA-AR-01-005
 Services, and Equipment Purchases


               APPENDIX B. THE SUBCONTRACTING REPORTING PROCESS



        Field Level                                                                                  HQ Supplies & Services Level
                                                                        Supplier
                                                                       sends 2nd
                                                                          tier
                                                                      Submissions
           Buyers /CO's
                                                                                                                                 Buyers /CO's
              receive
                                                                                                                                   receive
         submissions and
                                                                                                                              submissions and
             review for
                                                                                                                                  review for
         reasonableness              Supplier Diversity                                          Supplier Diversity            reasonableness
        and consistency w/             Coordinator                                                 Coordinator                and consistency
              contract                   receives                                                    receives                     w/ contract
           requirements              submissions from                                            submissions from               requirements
                                          buyers                                                      buyers


                      A copy of                                                                                         A copy of
                                                          Support for HQ            Support for HQ
                      Suppliers                                                                                         suppliers
                                                           Submissions               Submissions
                    submissions                                                                                       submissions
                    placed in the                                                                                     placed in the
                    contract files                                                                                    contract files


       Supplier Diversity                                                                                             Supplier Diversity
         Coordinators                                                                                                   Coordinators
          compile and                                                                                                    compile and
       prepare summary                                                                                                prepare summary
            reports                                                                                                        reports




                                     Supplier Diversity
        Purchasing and                 Coordinators                                                                    Commodity Area
        Material Service                receive and                                                                   Managers approve
        Center Manager                    approve                                                                     summary reports
           approves                   summaries and
          summaries                        fax to




         Field Customer                                                                                                HQ Purchasing
        Support Manager                                           HQ Report                                               Manager
          approves and                                            Processing                                             approves
              sends                                                                                                    summary report


                                                                                                         HQ Management Analyst
                                                                                                      receives summaries from the
                                                                                                     field offices and HQ, combines
                                                                                                     them and produce the Supplier
                                                                                                            Diversity Statistics
                                                               Supplier Diversity
                                                                  Statistics

    Legend

                    *Currently Not Being Done by Buyers
                    (COs) Interviewed                                                      When appropriate, Supplier
                                                                                           Diversity Statistics are sent
      Support for                                                                        back to the field offices and HQ
         HQ           *Currently not being done at all                                    to review for reasonableness
     Submissions      locations                                                           and consistency with contract
                                                                                                  requirements




                                                                       18
                                                             Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases


                        APPENDIX C. MANAGEMENT’S COMMENTS




                                                     19
                                           Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases




                                                     20
                                           Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases




                                                     21
                                           Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases




                                                     22
                                           Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases




                                                     23
                                           Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases




                                                     24
                                           Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases




                                                     25
                                           Restricted Information
Supplier Diversity Program for Supplies,                            CA-AR-01-005
 Services, and Equipment Purchases




                                                     26
                                           Restricted Information
